No. _________
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------SCOTT ROTHSTEIN,
Petitioner,
vs.
UNITED STATES,
Respondent.
---------------------------------♦--------------------------------On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit
---------------------------------♦--------------------------------PETITION FOR A WRIT OF CERTIORARI
---------------------------------♦--------------------------------MARC S. NURIK
LAW OFFICES OF MARC S. NURIK
150 S. Rodeo Drive, Suite 260
Beverly Hills, CA 90212
310-909-6828
marc@nuriklaw.com
================================================================================================================

i
I.

QUESTIONS PRESENTED

A. Whether the Government’s right to withdraw
a previously earned and filed Rule 35 Motion, where
the plea agreement fails to warn the defendant of the
Government’s right to withdraw, violates the defendant’s due process rights.
B. Whether denying the defendant the right to
an evidentiary hearing on the breach allegation after
the defendant has already provided substantial cooperation, violates the defendant’s due process rights.

ii
II.

RELATED CASES

•

United States v. Scott W. Rothstein, No. 0:09-cr60331-JIC, U.S. District Court for the Southern
District of Florida. Judgment entered June 9,
2010. Order granting Government’s Motion to
Withdraw Rule 35 Motion entered April 16, 2018.

•

United States v. Scott Rothstein, No. 18-11796, U.S.
Court of Appeals for the Eleventh Circuit. Judgment entered September 30, 2019.

iii
III.

TABLE OF CONTENTS
Page

I.

QUESTIONS PRESENTED ......................

i

II.

RELATED CASES .....................................

ii

III.

TABLE OF CONTENTS ............................

iii

IV.

TABLE OF AUTHORITIES .......................

iv

V.

PETITION FOR WRIT OF CERTIORARI ....

1

VI.

DECISIONS BELOW ................................

1

VII.

JURISDICTION ........................................

1

VIII. CONSTITUTIONAL PROVISIONS AND
RULES INVOLVED ...................................

2

IX.

STATEMENT OF THE CASE ...................

3

X.

REASONS FOR GRANTING THE WRIT ....

6

XI.

CONCLUSION .......................................... 25

APPENDIX
United States Court of Appeals for the Eleventh
Circuit, Opinion, September 30, 2019 ............. App. 1
United States District Court for the Southern
District of Florida, Order, April 16, 2018 ...... App. 15
United States District Court for the Southern
District of Florida, Plea Agreement, January
27, 2010 .......................................................... App. 26
United States District Court for the Southern
District of Florida, Motion, June 8, 2011 ...... App. 45

iv
IV.

TABLE OF AUTHORITIES
Page

CASES
Alexandra v. Oxford Health,
833 F.3d 1299 (11th Cir. 2016) ................................15
Florida v. Nixon,
543 U.S. 175, 125 S.Ct. 551, 160 L.Ed.2d 565
(2004) ................................................................. 10, 12
In re Arnett,
804 F.3d 1200 (11th Cir. 1986) ..................................7
Norfolk Southern Railway Company v.
James N. Kirby,
543 U.S. 14, 125 S.Ct. 385, 160 L.Ed.2d 283
(2004) .........................................................................7
Novak v. Irwin Yacht and Marine,
986 F.2d 458 (11th Cir. 1993) ..................................15
Strickland v. Washington,
466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984) ................................................................. 10, 12
United States v. Adkins,
466 Fed. Appx. 855 (11th Cir. 2012) ................. 16, 17
United States v. Al-Arian,
514 F.3d 1184 (11th Cir. 2008) ................................16
United States v. Berner,
572 F.3d 1239 (11th Cir. 2009) ................................17
United States v. Bethlehem Steel Corp.,
315 U.S. 289, 86 L.Ed. 855 (1942) ...........................11
United States v. Copeland,
381 F.3d 1101 (11th Cir. 2004) ........................ 7, 8, 13

v
IV.

TABLE OF AUTHORITIES—Continued
Page

United States v. Elbeblawy,
699 F.3d 925 (11th Cir. 2016) .............................. 7, 13
United States v. Fla. West Int’l Airways,
853 F.Supp.2d 1209 (S.D. Fla. 2011) .......................15
United States v. Harris,
376 F.3d 1282 (11th Cir. 2004) ................................11
United States v. Hartwell,
448 F.3d 707 (4th Cir. 2006) .............................. 18, 19
United States v. Harvey,
791 F.2d 294 (4th Cir. 1966) ......................................8
United States v. Howie,
166 F.3d 1166 (11th Cir. 1999) ................................11
United States v. Jackson,
635 Fed. Appx. 657 (11th Cir. 2015) .......................19
United States v. Jeffries,
908 F.2d 1520 (11th Cir. 1990) ...................... 7, 13, 15
United States v. Melton,
861 F.3d 1320 (11th Cir. 2017) ................................11
United States v. Padilla,
186 F.3d 136 (2d Cir. 1999) ............................... 20, 21
United States v. Pittman,
2017 U.S. APP LEXIS 18136 (11th Cir. 2017) ... 17, 18
United States v. Rubbo,
396 F.3d 1330 (11th Cir. 2005) ............................ 7, 13
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. V ....................................................2

vi
IV.

TABLE OF AUTHORITIES—Continued
Page

OTHER AUTHORITIES
Black’s Law Dictionary, Eighth Edition 2004 ...... 16, 19
Random House Webster’s Dictionary,
Unabridged Second Edition, 2001 ..........................20

1
V.

PETITION FOR WRIT OF CERTIORARI

Scott Rothstein, a federal inmate by and through
his counsel, Marc S. Nurik, respectfully petitions this
court for a writ of certiorari to review the judgment of
the Eleventh Circuit Court of Appeals.
VI.

DECISIONS BELOW

On April 16, 2018, the District Court entered its
Order granting the Government’s Motion to withdraw
the Rule 35 Motion and denied Petitioner’s request for
an evidentiary hearing. Petitioner timely appealed the
District Court’s ruling to the Eleventh Circuit Court of
Appeals.
The Eleventh Circuit Court of Appeals issued its
Opinion on September 30, 2019 in Case No.18-11796,
Non-Argument Calendar, affirming the District Court’s
Order.
VII.

JURISDICTION

The Eleventh Circuit Court of Appeals entered
judgment on September 30, 2019. Justice Thomas extended the time for filing this petition to and including
February 27, 2020. This court has jurisdiction under 28
U.S.C. § 1254(1).

2
VIII. CONSTITUTIONAL PROVISIONS
INVOLVED
The United States Constitution, Amendment V,
provides:
“No person . . . shall be deprived of life, liberty
or property without due process of law.”
Federal Rules of Criminal Procedure 35 provides:
(a) CORRECTING CLEAR ERROR. Within 14
days after sentencing, the court may correct a sentence that resulted from arithmetical, technical, or
other clear error.
(b) REDUCING
ASSISTANCE.

A

SENTENCE

FOR

SUBSTANTIAL

(1) In General. Upon the government’s
motion made within one year of sentencing,
the court may reduce a sentence if the defendant, after sentencing, provided substantial
assistance in investigating or prosecuting
another person.
(2) Later Motion. Upon the government’s motion made more than one year after
sentencing, the court may reduce a sentence
if the defendant’s substantial assistance involved:
(A) information not known to the
defendant until one year or more after
sentencing;
(B) information provided by the defendant to the government within one

3
year of sentencing, but which did not become useful to the government until more
than one year after sentencing; or
(C) information the usefulness of
which could not reasonably have been
anticipated by the defendant until more
than one year after sentencing and which
was promptly provided to the government
after its usefulness was reasonably apparent to the defendant.
(3) Evaluating Substantial Assistance.
In evaluating whether the defendant has provided substantial assistance, the court may
consider the defendant’s presentence assistance.
(4) Below Statutory Minimum. When
acting under Rule 35(b), the court may reduce
the sentence to a level below the minimum
sentence established by statute.
(c) “SENTENCING” DEFINED. As used in this
rule, “sentencing” means the oral announcement
of the sentence.
IX.

STATEMENT OF THE CASE

Petitioner, Scott W. Rothstein was an attorney
licensed to practice in the State of Florida and chairman of the Rothstein Rosenfeldt and Adler law firm,
in Fort Lauderdale, Florida. Beginning in 2005, with
the assistance of co-conspirators, Petitioner devised,
orchestrated and executed a Ponzi scheme initially utilizing fictitious loans and later, fictitious confidential

4
settlements, which resulted in stipulated victim losses
of three hundred and sixty-four (364) million dollars.
As the scheme began to unravel in late October
2009, Petitioner fled to Morocco, a non-extradition
country. On or about November 3, 2009, Petitioner
voluntarily returned to the United States and immediately began cooperating with the Government.
Initially petitioner was in the protective custody of
federal agents, debriefing round the clock on his
scheme and the participation of others. During this
initial period of cooperation, in addition to reviewing
numerous documents, detailing the involvement of
others and explaining the intricate details of his
scheme, Petitioner participated in an undercover sting
operation leading to the arrest and subsequent conviction of a Sicilian mafia member.
On December 1, 2019, Petitioner was formally arrested on an indictment and placed in a federal facility
under protective custody. Petitioner subsequently pled
guilty to the indictment pursuant to a plea agreement.
(App.26). While in formal custody awaiting sentencing,
Petitioner continued to cooperate extensively with the
Government regarding his scheme and the participation of others in his and other crimes. Petitioner also
continued his pro-active cooperation while in custody.
On June 9, 2010, Petitioner was sentenced to a
term of incarceration of 600 months (50 years). Rather
than filing a 5K1.1 motion prior to sentencing, the Government intended to subsequently file a Rule 35 Motion, as Petitioner’s cooperation was continuing.

5
Petitioner was transferred to a federal facility pursuant to a protective custody program and continued his
cooperation with the Government.
The Government filed its Rule 35 Motion on June
8, 2011. (App.45). The motion specifically acknowledged that “prior to the defendant’s guilty plea he began cooperating with the United States in the
investigation of others. The defendant has continued to
cooperate with federal law enforcement authorities in
its criminal investigation . . . some of the information
provided by the defendant to the Government has not
yet become useful to the government as the investigation is ongoing and has not come to fruition.” (App.46).
It was anticipated that a formal Rule 35 hearing would
take place once Petitioner’s cooperation had ended.
The Rule 35 Motion also contained a paragraph
which read: “The Government expressly reserves the
right to withdraw the motion if, in the judgment of the
United States the defendant should fail to comply with
the terms of his plea agreement, fail to testify truthfully or falsely implicate any person or entity.”
(App.46).
However, the plea agreement did not contain any
language reserving to the Government any right to
withdraw a filed and earned Rule 35 Motion.
On September 26, 2017, more than six (6) years
after filing its Rule 35 Motion and after Petitioner had
continued his cooperation resulting in the successful
prosecution of more than 25 individuals, the Government filed its Motion to Withdraw the Rule 35 Motion.

6
In its Motion, the Government stated that Petitioner
“provided false material information to the Government and violated the terms of his plea agreement.”
(App.18). The Government did not provide any details
or further information to support that statement. The
Government claimed that in its sole discretion to evaluate Petitioner’s cooperation; it expressly reserved the
right to withdraw the Motion.
Petitioner opposed the Government’s motion. And
requested, at a minimum, that the court hold an evidentiary hearing.
X.

REASONS FOR GRANTING THE WRIT

Petitioner argues that the Government never advised or warned him of its ability to withdraw a previously filed and earned Rule 35 Motion. Petitioner’s
entire agreement with the Government consists of his
Plea Agreement and the incorporated Cooperation
Agreement, hereinafter collectively referred to as the
“Plea Agreement.” The Plea Agreement contains an
integration clause at paragraph 16 which states that
“there are no other agreements, promises, representations, or understandings binding upon the parties unless contained in a letter from the United States
Attorney’s Office executed by all parties and counsel
prior to the change of plea.” (App.34). The Petitioner
has never consented to any other agreement, promise,
representation or understanding, and thus, none exist
for the purposes of this Petition, beyond the Plea
Agreement and incorporated Cooperation Agreement.

7
A plea agreement must be construed in light of the
fact that it constitutes a waiver of substantial constitutional rights requiring that the Defendant be adequately warned of the consequences of his plea. United
States v. Elbeblawy, 699 F.3d 925 (11th Cir. 2016, citing
United States v. Copeland, 381 F.3d 1101 (11th Cir.
2004), quoting United States v. Jeffries, 908 F.2d 1520,
1523 (11th Cir. 1990). Additionally, absent some indication that the parties intended otherwise, the language of the plea agreement must be given its ordinary
and natural meaning. United States v. Rubbo, 396 F.3d
1330, 1334-1335 (11th Cir. 2005). Any ambiguities in
the agreement must be resolved against the Government and in favor of the defendant. Jeffries, 908 F.2d
at 1523. A plea agreement is a contract between the
United States and the defendant. Id. Therefore, although constrained at times by due process implications, commercial contract principles govern the
interpretation and enforcement of plea agreements. Id.
“Where the words of a . . . contract have a plain and
obvious meaning, all construction, in hostility with
such meaning, is excluded.” Norfolk Southern Railway
Company v. James N. Kirby, 543 U.S. 14, 125 S.Ct. 385,
160 L.Ed.2d 283 (2004). The courts should not contravene any clause’s obvious meaning. Id. In determining
the meaning of any disputed term in the plea agreement, the court must apply an objective standard and
must decide whether the Government’s actions are inconsistent with what the defendant reasonably understood at the time he entered his guilty plea. In re
Arnett, 804 F.3d 1200, 1202-1203 (11th Cir. 1986). Both
constitutional and supervisory concerns require holding

8
the Government to a greater degree of responsibility
than the defendant for imprecisions or ambiguities in
plea agreements. Copeland, 381 F.3d at 1106, citing
United States v. Harvey, 791 F.2d 294, 300 (4th Cir. 1966).
A review of the plea agreement reveals more than
nine extremely detailed pages, clearly delineating the
rights and obligations of the parties in plain, ordinary
English. The agreement goes into precise detail as to
all of the rights Petitioner is giving up and the wideranging punishments he is subjecting himself to by entering into the plea agreement. The agreement further
details all the rights retained by the court and outside
the control of Petitioner and the Government. The
agreement goes into excruciating detail establishing
the Government’s unfettered discretion to evaluate Petitioner’s cooperation and to decide whether or not to
file a 5K1.1 or Rule 35 Motion on his behalf. The agreement goes into great detail advising Petitioner as to all
the events that could trigger the Government refusing
to recommend at sentencing that the court reduce the
advisory sentence guideline base sentence, upon acceptance of responsibility. The agreement goes into detail as to all of Petitioner’s rights and responsibilities
related to restitution and related to forfeiture, including waiver of the statute of limitations and his
rights under the Eighth Amendment. The agreement
expressly reserves to the Government the right to
make any recommendations as to the quality and
quantity of Petitioner’s punishment. The agreement
details the limits of what the agreement resolves: only
Petitioner’s criminal liability in the Southern District

9
of Florida known to the U.S. Attorneys as of the date of
the plea agreement. The agreement goes into great detail regarding Petitioner’s appellate waiver and the
Government retaining its appellate rights. The agreement also details Petitioner’s waiver of his right to collaterally attack his Sentence. And the agreement
contains a very specifically worded integration clause.
The agreement clearly adequately warns Petitioner of
a wide range of potential consequences of his plea. And
it does so in a manner such that Petitioner could reasonably understand the terms of his agreement. And
there the agreement stops. There is not one single
word, phrase, sentence or paragraph that could possibly be said to have warned Petitioner that one of the
consequences of his plea was that even after the Government exercises the two discretionary authorities
clearly set forth in ordinary English in the plea agreement, the discretion to evaluate Petitioner’s cooperation to determine if it rises to the level of substantial
assistance and the discretion to file a Rule 35 Motion
on his behalf, that the Government was retaining the
unbridled discretion to withdraw the Rule 35 Motion
upon the occurrence of some triggering event. The Government was certainly capable of including language
that would have adequately warned Petitioner that
even after his Rule 35 Motion was earned and filed
that the Government was retaining the discretion to
withdraw it.
Instead the Government used the language that
should have been in the plea agreement—more than a
year later in the Rule 35 Motion—in a veiled attempt
to insert a new term into their agreement with

10
Petitioner. The obvious problem with what they attempted to do is that in order to be enforceable, the discretion to withdraw the Rule 35 Motion needed to be
in the plea agreement or the Government needed to
obtain Petitioner’s consent to the new term, in writing.
However, rather than attempt to obtain Petitioner’s
written consent to this new potential consequence to
his plea, the Government put the new term in the Rule
35 Motion and then got Petitioner’s counsel to join in
the motion. The obvious problem with this is that while
an attorney does not have an obligation to obtain his
client’s consent to every tactical decision, an attorney
undoubtedly has a duty to consult with his client regarding important, critical decisions. Florida v. Nixon,
543 U.S. 175, 187, 125 S.Ct. 551, 160 L.Ed.2d 565
(2004), citing Strickland v. Washington, 466 U.S. 668,
688, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). It is beyond
doubt that a decision which would have given the Government sole, unbridled discretion to withdraw a Rule
35 Motion for sentence reduction after Petitioner had
earned it and the Government had filed it is exactly
the type of critical decision encompassed by this
Court’s opinions mandating that the attorney obtain
the client’s consent to such a term. The critical nature
of this potential new consequence which the Government attempted to insert into Petitioner’s plea agreement by including it in the Rule 35 Motion, is made all
the more evident by the fact that without the Rule 35
Motion, Petitioner’s 50-year sentence will result in him
dying in prison for his crimes, despite his extraordinary cooperation with the Government. Once Petitioner had earned his Rule 35 Motion and the
Government filed it, there was no chance that he was

11
going to consent to a new term that would give the
Government the unfettered discretion to act as his
judge, jury and executioner.
Modification of the terms of a plea agreement is
beyond the power of the District Court. United States
v. Melton, 861 F.3d 1320, 1328 (11th Cir. 2017) citing
United States v. Howie, 166 F.3d 1166, 1168-1169 (11th
Cir. 1999). Any such modification would impermissibly
alter the bargain at the heart of the plea agreement.
Id. Courts should not adopt “hyper-technical” readings
of the text of plea agreements. Id. citing United States
v. Harris, 376 F.3d 1282, 1287 (11th Cir. 2004). Plea
agreements must be interpreted based upon what they
say, not what they might have said if the Government
could have foreseen the future. Melton, 861 F.3d at
1328. The district courts are not authorized to ink-in
revisions to plea agreements to reflect a term the Government neglected to include. Id.
“It is the duty and responsibility of the courts, not
to rewrite Contracts according to their own views of
what is practical and fair, but to enforce them in accordance with the evidence and recognized principles
of law. United States v. Bethlehem Steel Corp., 315 U.S.
289, 86 L.Ed. 855 (1942). The above is a synopsis of
well-established law controlling the interpretation of
the language of plea agreements. Criminal defendants
have been able to rely on the enforcement of these critical rules for decades. With little variance, these cases
mirror the law of every other Federal Circuit in the
United States. In the case at bar, the Eleventh Circuit’s
opinion violates each and every one of these legal

12
principles, resulting in a holding which, if left unchecked by this Court, will literally turn the law regarding interpretation of plea agreements on its head.
The Eleventh Circuit’s opinion ignores the Supreme Court precedent controlling the issue of when
an attorney must obtain his client’s consent. The Eleventh Circuit simply states that the motion was joined
by Petitioner through the assent of his attorney oblivious to the enormity of such a ruling. If permitted to
stand, the rule in the Eleventh Circuit regarding when
an attorney must obtain the consent of his client will
lie in direct contravention of Supreme Court precedent, creating a significant pitfall for the unwary criminal defendant. In addition to the holdings in Nixon
and Strickland on this issue, the Government has another hurdle to overcome: the integration clause of the
plea agreement requiring that any modification of the
plea agreement be made in writing signed by all the
parties and their counsel. Despite the fact that this issue was raised by Petitioner in his initial brief, the
Eleventh Circuit never even addressed this issue,
choosing instead to ignore it completely in order to
reach a decision adverse to Petitioner. Clearly, the inclusion of this new term giving the Government the
unbridled discretion to withdraw the Rule 35 Motion
violates the plain ordinary meaning of the plea agreement’s integration clause. Thus, the new term should
be found to unenforceable.
A thorough review of the operative language of the
plea agreement reveals that the Eleventh Circuit, in
holding that the language of the agreement giving the

13
Government the sole discretion to file the Rule 35 Motion somehow also includes the sole discretion to withdraw the Rule 35 Motion after it has been earned and
filed, where the agreement does not contain any language giving the Government this discretionary authority, abrogates long-standing, well-established
principles controlling the interpretation of plea agreements. Absent an indication that the parties’ intended
language of the plea agreement must be given its plain,
ordinary, natural meaning, so as to adequately warn
the defendant of the potential consequences of his
plea. Rubbo, 396 F.3d at 1334-1335; Elbeblawy citing
Copeland quoting Jeffries. Criminal defendants in the
Eleventh Circuit and its sister circuits must be able to
trust that the language the Government chooses for
their plea agreements does not have any meaning
other than its ordinary, natural meaning. Criminal defendants must be able to interpret the language of
their plea. Agreements without having to resort to researching the law of every circuit in the United States
to see if, perhaps, lurking in some obscure case there is
a holding that could possibly alter, to their detriment
the plain, ordinary, natural meaning of the language
chosen by the Government. To reach the conclusion
reached by the Eleventh Circuit, a criminal defendant
would have to go well beyond the plain, ordinary natural meaning of the language of his plea agreement
making an already unleveled playing field, a minefield.
This is made even more untenable by allowing the
withdrawal to be unreviewable. Without the ability to
have the court inquire into the basis of the Government’s withdrawal without any showing other than a

14
conclusory statement, violates all standards of fair
play and violates a defendant’s Due Process rights.
The language of the plea agreement at issue gives
the Government two distinct discretionary authorities:
(1) the discretion to evaluate Petitioner’s cooperation
to determine if it rose to the level of substantial assistance; and (2) the discretion as to whether or not to file
a Rule 35 Motion on his behalf. There is no language
anywhere in the agreement giving the Government a
third discretionary authority to withdraw the Rule 35
Motion after it has chosen to exercise both of its other
authorities in favor of the defendant. Despite the fact
that there is no language that would adequately warn
Petitioner of this additional consequence of his plea,
the Eleventh Circuit has opined that it is somehow included in the first two discretionary authorities. The
problem with this ruling is that it defeats the purpose
of the rules requiring the Government to draft its plea
agreements in a manner that will adequately warn the
defendant of the potential consequences of his plea. In
essence: it requires the defendant to blindly guess at
the possible parade of horribles that could be hidden in
language which, to the defendant, seems clear on its
face.
An analysis of the language chosen by the Government in drafting Petitioner’s plea agreement is revealing. First, the agreement gives the Government the
sole discretion to evaluate Petitioners to determine if
it reaches the level of substantial assistance. The
agreement then goes on to spell out the Government’s
second discretionary authority, giving the Government
the sole discretion to make a motion consistent with

15
the intent of Rule 35; the sole discretion as to whether
to “file” a Rule 35 Motion. The agreement says absolutely nothing about withdrawing the Rule 35 Motion
after the Government has exercised its discretion in
the defendant’s favor and has filed his Rule 35 Motion.
In fact, the word “withdraw” or any form of it does not
appear anywhere in the plea agreement related to the
Rule 35 Motion. Where the Government knows what it
wants to say, it should say it. If the Government
wanted the discretion to withdraw the Rule 35 Motion,
they should have stated so in the plea agreement. Then
Petitioner would have been adequately warned of this
potential consequence of his plea and would have had
at least some modicum of an opportunity to try to negotiate the term with the Government or refuse to execute the plea. Here, the Government’s poor drafting
has literally blind-sided Petitioner. There is nothing
ambiguous about the language the Government chose.
Of course, if it were found to be ambiguous it would
have to be construed against the Government as the
drafter. Jeffries, 908 F.2d at 1523. A term is ambiguous
if it is susceptible to two or more reasonable interpretations that can be fairly made. Alexandra v. Oxford
Health, 833 F.3d 1299 (11th Cir. 2016) citing Novak v.
Irwin Yacht and Marine, 986 F.2d 458, 472 (11th Cir.
1993). There is nothing ambiguous about the word
“file” and the phrase “make a motion consistent with
the intent of [Rule 35].” Courts often turn to resources
such as Black’s Law Dictionary to determine the plain,
ordinary and natural meaning of a term. United States
v. Fla. West Int’l Airways, 853 F.Supp.2d 1209 (S.D. Fla.
2011). Black’s Law Dictionary defines the term “file” as

16
it appears in the plea agreement at issue as follows: “to
deliver a document to the court clerk or record custodian for placement in the official record.” Black’s Law
Dictionary, Eighth Edition 2004. Black’s defines the
term “withdraw,” found nowhere in the plea agreement
relating to the Rule 35 Motion as follows: “to take back
something presented, granted, enjoyed, possessed or
allowed; to refrain from prosecuting or proceeding
with.” Id. And finally, and perhaps most importantly, is
the following, phrase contained in the plea agreement,
in pertinent part: “If in the sole and unreviewable judgment of this office, the defendant’s cooperation is of
such quality and significance to the investigation or
prosecution of other criminal matters . . . this office
may . . . make a motion consistent with the intent of
Rule 35 subsequent to sentencing, reflecting that the
defendant has provided substantial assistance . . . ”
The Eleventh Circuit has previously held that where a
plea agreement is unambiguous, courts are not to read
into the agreement terms that were not agreed upon
with specificity, even when the defendant misunderstood the agreement. United States v. Al-Arian, 514
F.3d 1184, 1191-1193 (11th Cir. 2008).
It is not as if the Government was incapable of
choosing language that would have adequately warned
Petitioner that the Government was retaining the discretion to withdraw his Rule 35 Motion. United States
Attorney’s across the Eleventh Circuit have frequently
utilized such language in their plea agreements to ensure that the criminal defendants they were dealing
with were well aware of the consequences of their plea.
In United States v. Adkins, 466 Fed. Appx. 855, 857-858

17
(11th Cir. 2012), the U.S. Attorney for the Northern
District of Florida drafted a plea agreement which explicitly gave the Government the right to unilaterally
revoke the plea agreement while leaving the guilty
plea in full force, if the defendant, among other things,
committed further criminal conduct. In Adkins the U.S.
Attorney had filed a substantial assistance motion on
defendants behalf but later withdrew the motion because he committed another crime. The withdrawal
was based upon the specific language of the plea agreement giving the Government this right. Id. In United
States v. Berner, 572 F.3d 1239, 1248-1249 (11th Cir.
2009), the U.S. Attorney for the Northern District of
Georgia drafted a plea agreement which also gave the
Government the explicit right to withdraw a substantial assistance motion. The agreement stated in pertinent part: “Based upon the substantial assistance the
defendant has provided in this case . . . the Government will file a [5K1.1] motion at sentencing—if the
defendant fails to cooperate truthfully or completely, or
if the defendant engages in additional criminal conduct or other conduct inconsistent with cooperation, he
will not be entitled to any consideration, whatsoever,
pursuant to this and the preceding paragraphs.” That
is exactly the type of language available to the AUSA’s
in the present case that they either specifically or neglectfully did not utilize. In United States v. Pittman,
2017 U.S. APP LEXIS 18136 (11th Cir. 2017), the U.S.
Attorney for the Middle District of Alabama drafted a
plea agreement which specifically stated, in pertinent
part: “if Pittman failed or should fail in any way to fulfill completely her obligations under this agreement,

18
then the Government will be released from its commitment to honor all of its obligations to Pittman without
her being allowed to withdraw her guilty plea.” One of
the obligations from which the Government would be
released was the filing of a substantial assistance motion. Id. Again, had the Government in this case chosen
similar language, we would not be here. Even the cases
relied upon by the District Court and the Eleventh Circuit, in finding against Petitioner, involve plea agreements which use the type of language that Petitioner
herein is arguing must be used if the Government
wants to adequately warn a criminal defendant that
one of the consequences of his plea is that the Government is retaining the discretion to withdraw a filed
substantial assistance motion. The cases relied upon
by the District Court and the Eleventh Circuit offer
them no relief. In United States v. Hartwell, 448 F.3d
707 (4th Cir. 2006) relied upon by the Government, the
District Court and the Eleventh Circuit in support of
the proposition that the discretion to file a Rule 35 Motion includes the right to withdraw it, the appellate
court specifically stated that Hartwell himself, had explicitly agreed to the language giving the Government
the right to withdraw his Rule 35 Motion and that the
plea agreement itself specifically stated that if Hartwell “ . . . failed to fulfill any of his obligations under
this plea agreement, the United States may seek release from any or all of its obligations under [the] plea
agreement.” Id. at 710. This is exactly the language
that Petitioner herein is arguing should have been included in his plea agreement to adequately warn him
of the potential consequence that his Rule 35 Motion

19
could be withdrawn after it had been earned and filed.
Hartwell supports the Petitioner’s position. In citing to
Hartwell, the Eleventh Circuit completely ignores the
operative language of the plea agreement in Hartwell,
simply extracting a sentence from the opinion that
says “we conclude that the language giving the Government ‘sole discretion’ to file a Rule 35(b) Motion also
includes the discretion to file a motion to withdraw it.”
id., avoiding any discussion of the language that the
Fourth Circuit based its holding on. The plea agreement in Hartwell, unlike the plea agreement in the
present case, gave the Government the discretion to
withdraw the Rule 35 Motion. The language in the
Hartwell plea agreement supports the Fourth Circuit’s
holding. But that holding is wholly inapplicable to the
case before this Court, as no such language is contained anywhere in Petitioner’s plea agreement. The
Eleventh Circuit, in its opinion erred by extracting a
single sentence from a case as support for their opinion, when the facts are directly inapposite to the case
under review.
The Eleventh Circuit opinion also relies on United
States v. Jackson, 635 Fed. Appx. 657 (11th Cir. 2015),
which again is factually inapposite to Petitioner’s case.
In Jackson, the plea agreement specifically gave the
Government the right to nullify the 5K1.1 motion.
The plea agreement recites that “if in judgment of
this office the defendant’s cooperation is of such quality
and significance to the investigation or prosecution of
other criminal matters . . . this office may . . . make a
motion consistent with the intent of . . . Rule 35 . . .

20
subsequent to sentencing, reflecting that the defendant has provided substantial assistance . . . ” According to Black’s, a motion is a written or oral application
requesting a court to make a specified ruling or order.
Random House Webster’s defines “consistent” as follows: “agreeing or accordant; compatible; not selfcontradictory.” Random House Webster’s Dictionary,
Unabridged Second Edition, 2001. And of course, as
this Court is well aware, a Rule 35 Motion is a motion
for reduction of a sentence for substantial assistance.
Thus, simply, in plain, ordinary, natural language,
making a motion consistent with the intent of Rule 35
can only mean filing a motion seeking a reduction of
sentence for substantial assistance. The Eleventh Circuit’s opinion directly contradicts the plain and ordinary meaning of the language the Government chose
when drafting the operative plea agreement. Inclusion
of the language used, and exclusion of language not
used was the Government’s choice as drafter. The Government could have easily ensured that Petitioner
would be adequately warned that his Rule 35 Motion
could be withdrawn at any time, at the Government’s
sole discretion, had the Government simply chosen to
include language in the plea agreement saying so.
The Eleventh Circuit’s opinion below is in conflict
with the Second Circuit’s decision in United States v.
Padilla, 186 F.3d 136 (2d Cir. 1999). In Padilla, the Second Circuit found that the Government was not permitted to withdraw a previously filed 5K1.1 motion.
The Eleventh Circuit decision below, wrongfully distinguished the Padilla holding on the basis that the

21
Padilla plea agreement stated that the Government
“will” file a substantial assistance motion if the defendant provided the requisite cooperation whereas in Petitioner’s case the Government had the discretion
whether or not to file the Rule 35 Motion. However, a
closer reading of the Padilla opinion reveals that the
Second Circuit’s decision turned upon the fact that
while the plea agreement there (like the agreement in
Petitioner’s case) set forth in detail the other rights of
the Government, the right to withdraw the 5K1.1 Motion was not included anywhere in the Padilla agreement. The court held that “reading the agreement
strictly against the Government, as our precedent requires, we conclude that the [plea agreement] prohibits
the Government from withdrawing the [5K1.1] because it failed to enumerate specifically, the right to
withdraw the motion and the several and serious consequences that would follow if Padilla committed further crimes or otherwise violated the agreement.” Id.
at 141-142. This is precisely the situation in Petitioner’s case.
In addition to the above, there is another troubling
feature of the Eleventh Circuit’s opinion, dealing again
with the issue of language inclusion, exclusion, and
plain meaning. The Eleventh Circuit states that the
“Government reiterates too, that the Rule 35(b)(1) Motion was really just a ‘placeholder’ motion to preserve
the one-year time limitation . . . ” That statement is belied by the language the Government chose to use
when filing the Rule 35 Motion. First, and most importantly, the Eleventh Circuit seems to intimate, as

22
did the Government, that at the time the Government
filed the Rule 35 Motion, it had not yet determined
whether Petitioner’s cooperation had risen to the level
of substantial assistance. The Rule 35 Motion, in the
opening paragraph, clearly states that the motion is
being filed based upon the defendant having rendered
substantial assistance to the Government. The motion
goes on to state that “some” of defendant’s cooperation
is not yet complete and advised the Court that the Government wishes to wait until all of Petitioner’s cooperation is complete before any ruling on the motion is
made. The Government specifically states that “upon
completion of the defendant’s cooperation, the Government WILL file a motion for a hearing at which time
the Government WILL advise the Court of the nature,
extent and value of defendant’s cooperation.” Rule 35
Motion. Again, the language chosen by the Government, and moreover, the language not used by the Government, is revealing: The word “placeholder” does not
appear anywhere in the Rule 35 Motion. Nor does any
language similar, such as “saving motion.” The Rule 35
Motion does not state that the Government has not yet
been able to determine whether defendant’s cooperation has risen to the level of substantial assistance. In
fact, it says just the opposite; that the defendant has
rendered substantial assistance. By the time the Government filed Petitioner’s Rule 35 Motion, his cooperation had already been extraordinary. In addition to
having worked undercover wearing a wire on dangerous criminals and working undercover inside a federal
facility, eight of the targets Petitioner cooperated
against had already been charged and four of them had

23
already pled guilty. There is simply no definition of
substantial assistance under which any AUSA who is
being honest could say that Petitioner’s cooperation
had not yet, risen to the level of substantial assistance.
And, to the Government’s credit, they specifically state
in the Rule 35 Motion that Petitioner had already rendered substantial assistance; they simply wanted to
wait until all his cooperation was complete before advising the court.
To refer to the Rule 35 Motion as a mere placeholder motion is inaccurate, misrepresents what the
Rule 35 Motion actually says, and denigrates the cooperation Petitioner had already completed for the Government, often at great risk to his personal safety. And
finally, the statement by the Government, reiterated
by the Eleventh Circuit, that the motion was being
filed to prevent the expiration of the one-year time limitation of Rule 35(b)(1) is a red herring. Rule 35(b)(2)
is specifically meant to cover just such a situation by
obviating the need for any type of alleged “placeholder”
motion. As the Government clearly stated in the Rule
35 Motion and as the Eleventh Circuit stated in its
opinion, “some of the information provided [by Petitioner] . . . ha[d] not yet become useful to the Government.” (App.46). In plain English, that clearly means
just what the Government stated in the opening paragraph of the Rule 35 Motion . . . that Petitioner had
rendered substantial assistance to the Government by
the time the Rule 35 Motion was filed. “Some” of the
information had not yet become useful clearly means
that “some” of the information had, supporting the

24
basis for filing the Rule 35 Motion. By holding that the
Government’s unfettered discretion to withdraw a filed
and earned Rule 35 Motion without adequate warning
is equivalent to the Government’s discretion to file or
not file in the first place, the Eleventh Circuit goes too
far. Permitting the Eleventh Circuit to interpret the
language selected by the Government to a criminal defendant’s clear detriment, will have a significant
chilling effect on criminal defendant’s and the public’s
ability to trust that the Government will deal with
them fairly, with a sharpened sense of good faith. The
public must be able to believe that the courts of this
nation serve as a reality check on the government’s unbridled exercise of power, rather than simply a cheerleader and co-signer for whatever the Government
chooses to do.
Finally, Petitioner urges this Court to consider the
draconian consequences that could flow from letting
the Eleventh Circuit’s decision stand, holding that a
defendant in Petitioner’s situation is not entitled to an
evidentiary hearing on the Government’s bare claim of
a breach. Without the right to a hearing, what would
prevent the Government from withdrawing a filed
Rule 35 Motion without any reasonable cause after the
cooperation has already been provided by the defendant? Such a result is not only patently unfair, it violates a defendant’s right to Due Process of Law. Yet, in
its Opinion, the Eleventh Circuit suggests such a result is permissible stating: “an evidentiary hearing to
allow Rothstein to present evidence that he complied
with the cooperation agreement is warranted. . . . No

25
facts Rothstein can allege regarding his actual level of
cooperation would disturb the government’s unilateral
conclusion that his help was insufficient to warrant a
substantial assistance motion.” (App.13). This finding
is faulty for the simple reason that the Government
had already concluded that Rothstein deserved a reduction based on filing the motion. It was simply a
matter of waiting for its completion so that the Court
would have the full measure of his cooperation in deciding the amount of reduction.
XI.

CONCLUSION

For the foregoing reasons, Scott Rothstein respectfully requests that this Court issue a writ of certiorari
to review the judgment of the Eleventh Circuit Court
of Appeals.
Respectfully submitted,
MARC S. NURIK
LAW OFFICES OF MARC S. NURIK
150 S. Rodeo Drive, Suite 260
Beverly Hills, CA 90212
310-909-6828
marc@nuriklaw.com

